IN THE SUPREME COURT OF THE UNITED STATES

RICHARDS, JAMES W.
Petitioner
vs.

No:

20-0446

BARBARA M. BARRETT, SEC. OF THE AIR FORCE, ET
AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
October 19, 2020
cc:
ALEXANDER ANDRES NAVARRO
UNITED STATES AIR FORCE AFLOA/JAJA (APPELLATE DEFENSE
DIVISION)
1500 W. PERIMETER RD., SUITE 1100
JB-ANDREWS NAVAL AIR FACILITY ,
MD 20762

